3/9/2021

Cardholder Agreement for Mission Lane Visa® and Mission Lane Cash Back Visa®. Please sign on to your account to view your specific
account terms.

The Mission Lane Visa® Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for

19.49% - 29.99%

Your APR will vary with the market based on the Prime Rate.*

Purchases

APR for Cash Advances

Paying Interest

27.74% - 29.99%

Your APR will vary with the market based on the Prime Rate.*

Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest
on purchases if you pay your entire balance by the due date each month. We will begin charging
interest on cash advances on the transaction date or the first day of the billing cycle in which the
transaction is posted, whichever is later.

Minimum Interest Charge

For Credit Card Tips from the
Consumer Financial Protection

If you are charged interest, the charge will be no less than $0.50.

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

Bureau

Fees

1/18

3/9/2021

Annual Fee

$0 - $75
NOTICE: This annual fee will be assessed when you begin using your card and will reduce the amount
of credit you initially have available. For example, if you are assigned the minimum credit limit of $300,
your initial available credit will be only about $225.
You may still reject this plan, provided that you have not yet used the account. If you do reject the plan,
you are not responsible for any fees or charges.

Cash Advance

Transaction Fee
Foreign Transaction

The greater of $10 or 3% of each cash advance.

If the transaction occurs at a merchant outside of the U.S., the fee is 3% of the U.S. dollar amount of the
transaction, regardless of whether a currency conversion is performed at the time of the transaction.

Penalty Fees
Late Payment

Up to $35

How Will We Calculate Your Balance: We use a method called “Average Daily Balance (including new transactions).” See your Cardholder Agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Cardholder Agreement.
*How We Calculate Variable Rates: Your APR is a variable rate and may change quarterly. Your APR is determined by adding a margin of 16.24% - 26.74%
for Purchases and 24.49% - 26.74% for Cash Advances to the Prime Rate. The Prime Rate used to determine your APR for the billing cycle is the highest rate
appearing in The Wall Street Journal on the 16th day of the calendar months of March, June, September, and December. If the Prime Rate has changed, the
new rates will take effect within the next two billing periods after the change. Any increase in the Prime Rate may increase your interest charges and your
minimum payment.

2/18

3/9/2021

YOUR CARDHOLDER AGREEMENT INCLUDES AN ARBITRATION AGREEMENT.
PLEASE SEE BELOW FOR DETAILS.

THE MISSION LANE VISA® CREDIT CARD CARDHOLDER AGREEMENT
(Effective June 2019)
This Mission Lane Visa® Credit Card Cardholder Agreement, together with your Mission Lane Visa® Credit Card Account Opening Disclosure,
Arbitration Agreement, card carrier and credit card application (collectively, this “Agreement”) govern the use of The Mission Lane Visa® Credit
Card (“Card”) and related credit account (“Account”). All of the separate documents governing the Account, and any future changes we may make
to this Agreement, are part of this Agreement. Please read this Agreement and retain a copy for your records. The date of this Agreement is set
forth on your card carrier. However, this Agreement will only become effective if and when you (or a person authorized by you) activate your card
by following the instructions on the sticker on the card, by contacting us with your request to activate the card, and make a transaction using the
card. Prior to then, you will not be responsible for any Card transaction if the Card is lost or stolen. Your first transaction must be a Purchase (as
defined below) and not a Cash Advance (as defined below). Your use of the Card is your consent to be bound by the terms of this Agreement.
The Card is issued by Transportation Alliance Bank, Inc. dba TAB Bank (“TAB”), Ogden, UT, pursuant to a license from Visa U.S.A. Inc. TAB is the
creditor and Card issuer. As used in this Agreement, “we,” “us,” and “our” mean TAB, and any assignee of its rights. The words “you” and “your”
mean all persons responsible for complying with this Agreement, including the applicant, the cardholder, any guarantor and the person to whom we
address Account statements.
Use of the Card and Account: You may use the Card to make transactions only for personal, family or household purposes from any person or
establishment accepting the Card (each such transaction, a “Purchase”), to obtain cash advances from us or obtain cash or cash equivalents (each
such transaction, a “Cash Advance”) and to take advantage of other features of the Card. Cash Advances include: (a) using any convenience
3/18

3/9/2021

check we provide you; (b) obtaining funds through an automated teller machine (ATM) or a financial institution; (c) purchasing a wire transfer,
money order, foreign currency, travelers checks, lottery ticket, stored value load or other item that is a cash equivalent; (d) making a balance
transfer from another account if we allow such transfers; or (e) engaging in any similar transaction.
You agree to use the Card and Account only for legal and lawful purposes. Neither the Card nor the Account may be used for gambling purposes,
whether online or otherwise, or for the purpose of paying us on this or any other form of credit account you may have with us. If you do use your
Card for any such purpose, you will be in default under this Agreement and we may block such transactions and/or terminate your Account, but
you still will be liable to us for all charges relating to such transactions and all other transactions on your Account at the time it is closed
Promise to Pay: You promise to pay us for all amounts charged to the Account, including all transactions, interest, fees and charges charged to
your Account. You are obligated to repay us for all transactions made using your Card by people you have authorized to use the Card even if their
use of the Card exceeds the authorization which you gave them.
Servicer: Mission Lane LLC (“Mission Lane”), along with its partners and service providers, is the servicer of your Card and Account. In that
capacity, Mission Lane may act on our behalf, perform our obligations, or enforce our rights under this Agreement.
Credit Limits: We will extend credit to your Account up to a maximum amount for Purchases (your “Credit Limit”). On your billing statements, we
will provide information about your Credit Limits and remaining credit as of the billing statement date. You agree not to exceed your Credit Limit.
However, if you exceed your Credit Limit, we may authorize the transaction without increasing your Credit Limit, and you will remain liable for all
amounts payable under this Agreement. At our discretion, we may block transactions that would exceed your Credit Limit.
We will evaluate your Account at least once within the first 12 months of the Account opening to determine whether your Account is eligible for an
increase in Credit Limit based on certain factors, including but not limited to: 1) your history of on-time payments; 2) whether the Account is or has
been over the Credit Limit; 3) whether or not the Account is currently or has been restricted from charging privileges; 4) whether or not you have
closed the Account or have filed for bankruptcy; 5) whether you have an actual ability to pay the higher credit limit. At our discretion, and subject to
applicable law, we may change your Credit Limit at any time without advance notice to you.
Cash Advance Limit: Your Account is subject to a Cash Advance limit equal to 25% of your total Credit Limit ("Cash Advance Limit"). This means
we will not honor Cash Advance transactions that would cause the total amount of outstanding and unpaid Cash Advances to exceed 25% of your
overall credit limit.
4/18

3/9/2021

Payments:
Minimum Payment. Your Account will be on a monthly billing cycle. Each billing cycle, you must pay at least the minimum payment amount by the
payment due date shown on your billing statement (“Payment Due Date”). As specified in your Cardholder Agreement, the minimum payment is
the greater of (a) $25 or $35 (the “Minimum Amount” identified in your Cardholder Agreement), and (b) one of the following (“Minimum Payment”):
3% of the new balance (rounded up to the nearest dollar), or
1% of the new balance, plus the total billed interest charges and fees we have billed you on the statement for which your minimum payment
is calculated, excluding your annual fee (rounded up to the nearest dollar), or
1% of the new balance, plus the total billed interest charges on the statement for which your minimum payment is calculated (rounded up to
the nearest dollar).
Any new balance less than the Minimum Amount is payable in full. The Minimum Payment will also include any amount past due.
If you make a payment greater than your Minimum Payment, this does not affect your obligation to make the Minimum Payment due on the next
billing statement. We do not pay interest on overpayments or any other credit balances created on your Account. Credits to your Account, such as
from merchants, are generally not considered payments and will not reduce your Minimum Payment amount.
When Payments Are Due. We must receive at least the Minimum Payment due on your Account by 5:00 p.m. Eastern Time on the Payment Due
Date of each billing period (“Cut-Off Time”). Payments received after the Cut-Off Time will be credited as of our next business day. Credit to your
Account may be delayed for up to five (5) days if we accept a payment that does not adhere to the requirements set forth in this section and on
your statement. The available credit on your Account may not reflect your payment for up to five (5) business days if we doubt the collectability of
the payment or if we suspect fraudulent activity on your Account. Nonetheless, we will credit your payment to your Account as of the business day
that we receive it, provided we receive your payment prior to the Cut-Off Time.
We may accept late payments, partial payments, or any payments marked or specially designated as being payment in full or as being similarly in
settlement of any dispute, without losing any of our rights under this Agreement or under the law to collect all amounts due and payable on your
Account. Our acceptance of such payments does not mean we agree to change this Agreement in any way.
Payment Options. You can pay online through your online account, by mail, or by setting up automatic payments. Your payment must be made in
U.S. dollars with a draft or a check drawn on a U.S. bank and payable in U.S. dollars, or with a telephonic or electronic payment authorization in

5/18

3/9/2021

U.S. dollars. You agree not to send us any post-dated checks. If you do, we may deposit it immediately upon receipt, despite the later date on the
check.
Payment Allocation. We will apply the required Minimum Payment to balances on your Account using any method we choose, in accordance with
applicable laws and regulations. Although your Minimum Payment will be applied in any order at our discretion, payments in excess of the
Minimum Payment will be applied to balances with the highest APR first and then to lower rate balances in descending order of APR.
Calculation of Finance Charge and Average Daily Balance:
Daily Periodic Rates. The daily periodic rates for Purchases and Cash Advances are based on APR for Purchases and Cash Advances,
respectively, which may be adjusted monthly. The current daily periodic rate for Purchases and Cash Advances on your Account is calculated by
taking the applicable APR divided by 365 (“Daily Periodic Rate”).
How We Calculate Interest. We use the average daily balance (“ADB”) method (including new transactions) to calculate interest on your Account.
We calculate the interest charge for each type of balance on your Account by applying the Daily Periodic Rate to the ADB. Then, we multiply this
amount by the number of days in the billing cycle.
Interest charge = daily periodic rate x ADB x number of days in the billing cycle.
The ADB for Purchases and Cash Advances are calculated separately, starting with the beginning balance on the first day of each billing cycle.
The beginning balance on the first day of the billing cycle includes the following:
The prior billing cycle’s ending balance, which includes any applicable unpaid fees posted to your Account in the prior billing cycle, and
Any late payment fees posted in the current billing cycle that are related to a late payment in the prior billing cycle.
To get the ADB for each type of balance, we take the beginning balance each day and add any new transactions (including fees). Then, we
subtract any payments or credits. If specified in your Cardholder Agreement, we may also subtract non-accruing fees and unpaid interest charged.
Depending on your Account and if specified in your Cardholder Agreement, except for the first day of each billing cycle, we add interest equal to
the previous day’s balance multiplied by the Daily Periodic Rate. (This means interest is compounded daily.) This gives us the daily balance.
Transactions subject to a grace period are not added to the daily balances. Any daily balance that is a credit balance will be treated as zero. Then,
we add up all the daily balances for the billing cycle. We divide this amount by the number of days in the billing cycle. This gives us the ADB.

6/18

3/9/2021

ADB = sum of daily balances ÷ number of days in the Billing Cycle.
Minimum Interest Charge. If you are charged interest in a billing cycle, the charge will be no less than $0.50 on Purchases and Cash Advances.
When Interest Charges Begin: Your due date is at least 23 days after the close of each billing cycle. We will not charge you any interest on
Purchases if you pay your entire balance by the due date as shown on your billing statement for that billing cycle. There is no grace period for
Cash Advance transactions, and the interest charge begins to accrue from the date you obtained the Cash Advance, or the first day of the billing
period in which it is posted to your Account, whichever is later.
Preauthorized Recurring Merchant Transactions: You may authorize a merchant to automatically initiate a transaction on a recurring basis to
your Account. Upon the issuance by us of a new Card with a new Account number or expiration date, you may be required to contact the merchant
to provide such updated information in order to continue the recurring transactions. You also authorize us to provide updated information to the
merchant at our discretion. You must contact the merchant if you want to cancel automatic billing.
Foreign Currency Transactions: If you make a transaction using your Account in a foreign currency (including, for example, online purchases
from a merchant located outside of the U.S.), the transaction will be converted to U.S. dollars based on a rate selected by VISA U.S.A. Inc. (or any
of its affiliates) from the range of rates available in wholesale currency markets for the applicable central processing date (which may vary from the
rate VISA U.S.A. Inc. itself receives) or the government-mandated rate in effect for the applicable central processing date. The currency conversion
rate used by VISA U.S.A. Inc. (or any of its affiliates) on the currency conversion date may differ from the exchange rate in effect on the day you
made the transaction or on the day the transaction is posted to your Account. Our fee is a percentage of the U.S. dollar amount of the transaction.
Check Conversion Notification; Electronic Check Re-Presentment: If you provide a check as payment, you authorize us and our servicers or
agents either to use information from your check to make a one-time electronic fund transfer from your bank account or to process the payment as
a check transaction. When we use information from your check to make an electronic funds transfer, funds may be withdrawn from your bank
account as soon as the same day we receive your payment, and you will not receive your check back from your financial institution. In the event a
check is returned unpaid for insufficient or uncollected funds, we may re-present the check electronically.
Fees: We will charge the following fees, subject to applicable law:
Annual Fee. We will charge an annual fee of $0 - $75 each year, whether or not you use the Account, and whether or not you have active charging
privileges. Unless waived your first year, your annual fee will be charged upon the first transaction on the Account and then annually thereafter.
7/18

3/9/2021

Late Payment Fee. If we do not receive the Minimum Payment due on your Account by the Payment Due Date, we will charge a late payment fee
of $25, or if specified in your Cardholder Agreement, $25 for the first occurrence and $35 for the second and subsequent late payments that occur
within six (6) months of the first occurrence. However, we will not charge a late payment fee exceeding the Minimum Payment amount that is late.
We reserve the right to not assess a late payment fee on certain Accounts as we deem appropriate.
Cash Advance Fee. For each Cash Advance, we will charge a fee of either $10 or 3% of the amount of the Cash Advance, whichever is greater.
The Cash Advance Fee is treated as a transaction and added to your balance.
Events of Default: Subject to applicable law, we may consider your Account in default at any time if: (1) you fail to pay at least the Minimum
Payment by the Payment Due Date; (2) you attempt to engage in a transaction that exceeds the Credit Limit; (3) you make a payment that is
returned unpaid to us for any reason; (4) you breach any term under this Agreement; (5) we determine that any statement made by you to us in
connection with this Agreement or your credit card application was false or misleading; (6) you breach any terms under any other agreement that
you have with us, Mission Lane or with any of their affiliates; (7) you file for bankruptcy or some other insolvency proceeding is filed by or against
you; (8) you are declared incompetent or mentally incapacitated, or in the event of your death; or (9) we have any reason to believe you may not
be creditworthy.
Default Remedies: Upon your default and subject to any limitations or requirements of applicable law: (1) we may declare the entire amount you
owe us immediately due and payable and/or suspend or cancel your Account privileges; and (2) you agree to pay all reasonable costs, including all
court costs plus all reasonable attorneys’ fees if we must refer your Account for collection to any attorney who is not our employee.
Entire Agreement: You acknowledge that this Agreement, as amended (which includes your Account Opening Disclosure, Arbitration Agreement,
card carrier and credit card application) constitutes the entire agreement between you and us with respect to the Account and the Card, and
supersedes and may not be contradicted by evidence of any prior or contemporaneous written or oral communication or understanding between
you and us concerning the Account or the Card.
Waiver: Our failure to exercise any of our rights under this Agreement, or our waiver of our rights on any one occasion, shall not constitute a
waiver of such rights on any other occasion. We will not lose our rights under this Agreement because we delay in enforcing any of them.
Customer Privacy: Our privacy policy is provided separately in accordance with applicable law and can also be viewed online at
https://www.missionlane.com/privacy.
8/18

3/9/2021

Assignment: We may at any time and without notifying you, sell, transfer or otherwise assign your Account or any Account balances to any party
at any time. You may not assign or transfer your Account or any of your rights and obligations under this Agreement. Any such assignment or
transfer by you will be void.
Change of Terms: We may change the terms of this Agreement at any time, including any additions or deletions to the terms in this Agreement.
These changes may apply to existing and future balances on your Account as of the effective date of the change to the extent permitted under
applicable law. We will give you advance written notice of any change and a right to reject the change if required by law. We may require you to
close your Account or take other actions if you reject the changes. Any change to any term of this Agreement will not excuse your obligation to pay
all amounts owed under this Agreement.
Special Offers: At our option, we may make a special offer to you at any time. A special offer may apply for a limited period of time and may be
extended to certain cardholders based on criteria that we may determine in our sole discretion. Each special offer will be governed by the terms of
that offer and this Agreement. We will provide you the terms applicable to a special offer at the time we offer it to you. Special offer terms may
temporarily modify certain terms of this Agreement for qualifying payments or transactions. All other terms of this Agreement remain unchanged.
Any such special offer will not limit or affect any of our rights we have under this Agreement or applicable law.
Suspension/Revocation/Cancellation: Subject to applicable law, we may suspend, revoke or cancel your Account privileges, your right to use
the Card, or deny any transaction, in our sole discretion at any time, with or without cause and with or without giving you notice. Any such actions
on our part will not affect your obligation to pay us the outstanding balance, interest and fees under the terms of this Agreement. We are not liable
for any refusal to honor your Card or Account, or for the retention of your Card by any person or entity. If we revoke or cancel the Card, you must
destroy the Card or return the Card to us at our request. If a merchant that accepts Cards asks you to surrender an expired or revoked Card, you
must do so. You may not use a Card after it has expired or after it has been revoked or cancelled. You may cancel your Account at any time. If you
ask us to cancel your Account but we believe you have continued to use your Account after the date of cancellation, we will consider such use as
your request for reinstatement of your Account. We may then reinstate your Account.
Severability: Subject to the Arbitration Agreement: (1) if any part of this Agreement conflicts with applicable law, that law will control, and this
Agreement will be considered changed to the extent necessary to comply with that law; and (2) if any part of this Agreement is determined by a
court of competent jurisdiction to be invalid, the remainder of this Agreement will remain in effect.

9/18

3/9/2021

Events Outside of Our Control: We do not guarantee that you will always be able to make Purchases with your Card or your Card will always be
accepted when you attempt to use it. We are not responsible and will not be liable for any Card or other failures resulting from events outside of
our reasonable control.
Communications: To the extent permitted by applicable law, you agree that we have your express written permission and consent authorizing us,
our affiliates, servicer, agents, assigns, marketing associates and service providers (collectively, the “Messaging Parties”) to contact you using
automatic telephone dialing systems, artificial or prerecorded voice message systems, text messaging systems and automated email systems in
order to provide you with information about this Agreement or your Account, including information about upcoming Payment Due Dates, missed
payments and returned payments. You authorize the Messaging Parties to make such contacts using any telephone numbers, email addresses, or
mailing addresses you supply to any of the Messaging Parties or that we obtain through any legal means. You understand that anyone with access
to your telephone or email account may listen to or read the messages the Messaging Parties leave or send you, and you agree that the
Messaging Parties will have no liability for anyone accessing such messages. You further understand that, when you receive a telephone call, text
message or email, you may incur a charge from the company that provides you with telecommunications, wireless and/or internet services, and
you agree that the Messaging Parties will have no liability for such charges except to the extent required by applicable law. You expressly authorize
the Messaging Parties to monitor and record your calls with the Messaging Parties. You understand that, at any time, you may withdraw your
consent to receive text messages and calls to your cellphone or to receive artificial or prerecorded voice message system calls by calling the
Messaging Parties at 855-790-8860 or by sending a request by email to support@missionlane.com with the subject line “END
COMMUNICATIONS.”. To stop text messages, you can also simply reply “STOP” to any text message the Messaging Parties send you. To stop
certain emails, you can follow the opt-out instructions included at the bottom of the Messaging Parties’ emails.
Credit Reports: You understand and agree that we may obtain a consumer credit report in connection with your request for credit and in
connection with any updates, renewals or extensions of any credit as a result of your request. If you ask, you will be informed whether or not such
a report was obtained and, if so, the name and address of the agency that furnished the report. You understand and agree that we may obtain a
consumer credit report in connection with the review or collection of any transaction on your Account or for other legitimate purposes related to
such transactions. California Residents - you agree to waive your right to keep confidential from us information under Section 1808.21 of the
California Vehicle Code.
Information Reporting: We may report information about your Account to other creditors, other financial institutions and credit bureaus.
Late payments, missed payments, returned payments, or other defaults on your Account may be reflected in your credit report.

10/18

3/9/2021

Inaccurate Information: You have the right to dispute the accuracy of information we have reported. If you think any information about your
Account that we have reported to a credit bureau is incorrect, you can notify us by calling us at 855-790-8860 or writing to us at the Notice Address
provided above, Attn: Credit Reporting. Include your name, address, Account number, telephone number and a brief description of the issue. If
available, please include a copy of the credit report in question. We will research your issue and will let you know if we agree or disagree with you.
If we agree with you, we will contact the consumer reporting agency we reported to and request a correction.
Notices and Change in Information: You must send any notices to Mission Lane LLC, P.O. Box 105286, Atlanta, GA 30348, Attn: Notice (“Notice
Address”). To the extent permitted under applicable law, any notice you send us will not be effective until we receive it and have had a reasonable
opportunity to act on such notice. Any written or electronic correspondence we send to you will, however, be effective and deemed delivered when
mailed to you at your mailing address or your email address if you have authorized electronic communications, in each case as it appears on our
records. You must notify us of any changes to your name, mailing or email address, cell phone or home telephone number within 15 days of such
change. You can notify us by calling us toll-free at 855-790-8860 or by writing to Mission Lane at the Notice Address provided above, Attn: Change
of Info. All bankruptcy notices and related correspondence to us may be sent to us at Mission Lane at the Notice Address provided above, Attn:
Bankruptcy Notice.
Identity Theft: If you believe that you have been the victim of identity theft in connection with your Account, contact us at 855-790-8860 or
support@missionlane.com to request an Identity Theft Affidavit. You should send us a police report or written statement in the form we provide you
alleging that you are the victim of identity theft for a specific debt. Once we receive your documentation, we will cease debt collection activity until
we have reviewed the materials, determined that the debt is still collectible, complied with all obligations described in the Billing Rights Notice
below and sent you a written notice describing the basis for our determination.
Lost or Stolen Card: You agree to promptly notify us if you believe that your Card has been lost or stolen or that someone has used or may use
your Card or Account without your permission. You agree to assist us in determining the facts, circumstances and other pertinent information
related to any loss, theft or possible unauthorized use of your Card or Account and to comply with such procedures as we may reasonably require
in connection with our investigation, including the filing of one or more reports with the appropriate law enforcement authorities. Subject to
applicable law, you acknowledge and agree that we may terminate our investigation if you fail to provide us with any such assistance or to comply
with such procedures, and we otherwise have no knowledge of facts confirming the unauthorized use of your Card or Account. In such
circumstances, we will deem any such use as having been authorized by you and you will be liable for the amount of any transactions plus interest
charges and fees incurred with any such use.

11/18

3/9/2021

Governing Law: Except as provided in the Arbitration Agreement below, this Agreement and your Account are governed by federal law and, to the
extent state law applies, the laws of Utah without regard to its conflicts of law principles.
Inadvertent Overcharges: It is not our intention to charge any interest charges, fees or other amounts in excess of those permitted by applicable
law or this Agreement. If any interest charge, fee or other amount is finally determined to be in excess of that permitted by applicable law or this
Agreement, the excess amount will be credited to your Account or refunded to you.
Collection Proceedings: To the extent permitted by applicable law, you agree that, in any collection proceeding by us, our servicer, or a direct or
indirect purchaser of your indebtedness to us, unless you provide affirmative evidence, sufficient to the finder of fact, that our business records are
incorrect, the records we maintain in the ordinary course of business, including monthly statements and/or summaries of information in our
computer records, certified by any custodian of our records as accurate reflections of statements or information in our business records, provide
adequate proof of the amounts due hereunder.
Headings: The section captions of this Agreement are inserted only for convenience and are in no way to be construed as substantive parts of this
Agreement.

ARBITRATION AGREEMENT
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY. IT PROVIDES THAT ANY DISPUTE MAY BE RESOLVED BY BINDING
ARBITRATION AT EITHER PARTY’S REQUEST. UNLESS YOU PROMPTLY REJECT IT, THE ARBITRATION AGREEMENT WILL HAVE A
SUBSTANTIAL AFFECT ON YOUR RIGHTS IN THE EVENT OF A DISPUTE. ARBITRATION REPLACES THE RIGHT TO GO TO COURT,
INCLUDING THE RIGHT TO A JURY AND THE RIGHT TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING. IN
ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR INSTEAD OF A JUDGE OR JURY. ARBITRATION PROCEDURES ARE
SIMPLER AND MORE LIMITED THAN COURT PROCEDURES.
Agreement to Arbitrate: Maintaining good relationships with our customers is very important to us. We ask that you contact us immediately if you
have a problem with your Account or a service we provide. Often a telephone call to us resolves the matter quickly and amicably. However, if you
and we are unable to resolve our differences informally, you agree by opening or maintaining an Account with us, that if any dispute between you
and us arises regardless of when it occurs, it will be settled using the following procedures: YOU AND WE AGREE AND UNDERSTAND THAT (1)
YOU AND WE ARE GIVING UP THE RIGHT TO TRIAL BY JURY AND (2) THIS SECTION PRECLUDES YOU AND US FROM PARTICIPATING
12/18

3/9/2021

IN OR BEING REPRESENTED IN ANY CLASS OR REPRESENTATIVE ACTION OR JOINING OR CONSOLIDATING THE CLAIMS OF OTHER
PERSONS. In addition, your agreement to arbitrate and waive trial by jury shall be applicable to parties acting on our behalf, including agents or
independent contractors who collect your account on our behalf or purchase your account. This Arbitration Agreement is governed by the Federal
Arbitration Act (FAA), 9 U.S.C. §§ 1 et seq., and not by any state arbitration law. Except as set forth below, the parties agree to arbitrate any
dispute or controversy concerning your Account or related products or services. Either party may request that the matter be submitted to
arbitration.
Commencing an Arbitration: The party electing arbitration must notify the other of such election. This notice may be given before or after a
lawsuit has been filed concerning the Claim or with respect to other Claims brought later in the lawsuit, and it may be given by papers filed in the
lawsuit such as a motion to compel arbitration. If you elect arbitration you must notify us in writing at Mission Lane LLC, P.O. Box 105286, Atlanta,
GA 30348, Attn: Arbitration. If we elect arbitration we will notify you in writing at your last known address on file.
Claim: A “Claim” is any unresolved claim, dispute or controversy between you and us, whether past, present or future, arising out of or related to
this Agreement, your Account, products or services governed by this Agreement or the relationships resulting from this Agreement or your
Account. “Claim” has the broadest possible meaning, and includes initial claims, counterclaims, cross-claims and third-party claims. It includes
disputes based upon contract, tort, consumer rights, fraud and other intentional torts, constitution, statute, regulation, ordinance, common law and
equity (including any claim for injunctive or declaratory relief). Solely for purposes of this Arbitration Agreement, the terms “we,” “us” and “our” also
include any person or entity named as a co-defendant with us in a Claim asserted by you. Notwithstanding the foregoing, individual actions brought
in small claims court (or your state’s equivalent court) are eligible for arbitration; however, if the action is transferred, removed, or appealed to a
different court, it shall be eligible for arbitration at either party’s request.
Binding Arbitration: Binding arbitration is a means of having an independent third party (the arbitrator) resolve a dispute without using the court
system, judges or juries. Either you or we can request binding arbitration. Each arbitration, including the selection of the arbitrator, shall be
administered by the American Arbitration Association (AAA), according to the Consumer Arbitration Rules of the AAA. A single arbitrator shall be
appointed. If you have a question about the AAA, you can contact them as follows: American Arbitration Association, 1633 Broadway 10th Floor,
New York, NY 10019, 1-800-778-7879, www.adr.org. If the AAA is unable to serve as administrator and you and we cannot agree on a
replacement, a court with jurisdiction will select the administrator or arbitrator, provided that no company may serve as administrator, without the
consent of all parties, if it adopts or has in place any formal or informal policy that is inconsistent with and purports to override the terms of the
Class Action Waiver in this Arbitration Agreement.

13/18

3/9/2021

Powers and Qualifications of Arbitrators and Arbitration Procedures: All arbitrators will be required to be practicing attorneys or retired judges
and will be required to be experienced and knowledgeable in the substantive laws applicable to the subject matter of the dispute. Any arbitration
hearing that you attend will take place in a location that is reasonably convenient for you. If you cannot obtain a waiver of the AAA’s or arbitrator’s
filing, administrative, hearing and/or other fees, we will consider in good faith any request by you for us to bear such fees. Each party will bear the
expense of its own attorneys, experts and witnesses, regardless of which party prevails, unless applicable law or this Agreement gives a right to
recover any of those fees from the other party. The arbitrator shall follow applicable substantive law to the extent consistent with the FAA,
applicable statutes of limitation and privilege rules that would apply in a court proceeding, and shall be authorized to award all remedies available
in an individual lawsuit under applicable substantive law, including, without limitation, compensatory, statutory and punitive damages (which shall
be governed by the constitutional standards applicable in judicial proceedings), declaratory, injunctive and other equitable relief, and attorneys’
fees and costs. Upon the timely request of either party, the arbitrator shall write a brief explanation of the basis of his or her award. The arbitrator’s
award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter judgment upon the arbitrator’s
award.
Class Action Waiver: YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTION
AGAINST US IN COURT OR ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER.
The arbitrator shall have no authority to conduct any class, private attorney general or other representative proceeding, and shall award
declaratory or injunctive relief only in favor of the party seeking relief and only to the extent necessary to provide relief warranted by that party’s
individual claim. If a court determines that this paragraph is not fully enforceable, only this sentence will remain in force and the remainder will be
null and void, and the court’s determination shall be subject to appeal.
Rights Preserved: This Arbitration Agreement and the exercise of any of the rights you and we have under this Agreement, does not stop you or
us from exercising any lawful rights either of us has to use other available remedies; to comply with legal process; to obtain provisional remedies
such as injunctive relief, attachment or garnishment by a court of appropriate jurisdiction; or to bring an individual action in court that is limited to
preventing the other party from using or obtaining any provisional or self-help remedies and that does not involve a request for damages or
monetary relief.
In California: If an action or proceeding is initiated before any court in California and neither you nor we request that the dispute be submitted to
arbitration, then, upon motion by either you or us, the dispute shall be heard by an active attorney or a retired judge selected by the American
Arbitration Association (AAA) who is then appointed by the court in which the action commenced, according to the reference provision of the

14/18

3/9/2021

California Code of Civil Procedure, Section 638 et seq. This reference process is not subject to a trial by jury; the trial is conducted before the
active attorney or retired judge under California law.
Enforcement: You or we may bring an action, including a summary or expedited motion, to compel arbitration of Claims subject to arbitration, or to
stay the litigation of any Claims pending arbitration, in any court having jurisdiction. Such action may be brought at any time, even if such claims
are part of a lawsuit, unless a trial has begun or a final judgment has been entered. Any dispute concerning the validity or enforceability of this
Arbitration Agreement must be decided by a court; any dispute concerning the validity or enforceability of the Agreement as a whole is for the
arbitrator. Failure or forbearance to enforce this Arbitration Agreement at any particular time or in connection with any particular Claims will not
constitute a waiver of any rights to require arbitration at a later time or in connection with any other Claims. Any additional or different agreement
between you and us regarding arbitration must be in writing. If either you or we fail to submit to binding arbitration following a lawful demand, the
party who fails to submit bears all costs and expenses incurred by the party compelling arbitration.
Survival and Severability of Terms: This Arbitration Agreement shall survive: (1) termination or changes in the Agreement, the Account, or the
relationship between you and us concerning the Account; (2) the bankruptcy of any party; and (3) any transfer, sale or assignment of your Account,
or any amounts owed on your Account, to any other person or entity. If any portion of this Arbitration Agreement (except for the Class Action
Waiver set forth above) is deemed invalid or unenforceable, the remaining provisions of the Arbitration Agreement shall remain in force. No portion
of this Arbitration Agreement may be amended or waived absent a written agreement between you and us.
RIGHT TO REJECT: You may reject this Arbitration Agreement by mailing a signed rejection notice to Mission Lane LLC, P.O. Box
105286, Atlanta, GA 30348, Attn: Arbitration Rejection Notice, within thirty (30) calendar days after your Account is opened. Any
rejection notice must include your name, address, email address, telephone number and Account number. This is the only manner you can
reject this section. If you do that, only a court may be used to resolve any Claim. If you reject this Arbitration Agreement, that will not affect any
other provision of the Agreement.

STATE NOTICES
All Accounts, including California and Utah Residents: As required by law, you are hereby notified that a negative credit report reflecting on
your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
Arizona: Mission Lane LLC does business in Arizona under the trade name Mission Lane Card Services LLC.

15/18

3/9/2021

California: A married applicant may apply for a separate account. After approval, each applicant shall have the right to use this account to the
extent of the credit limit set by the creditor and each applicant may be liable for the amount extended under this account to any joint applicant. As
required by law, you are hereby notified that a negative credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of
your credit obligations.
Delaware: Service charges not in excess of those permitted by law will be charged on the outstanding balances from month to month.
Ohio: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers, and that credit
reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
Wisconsin: Your signature confirms that this loan obligation is being incurred in the interest of your marriage or family. No provision of any marital
property agreement, unilateral statement or court decree adversely affects a creditor’s interest unless, prior to the time the credit is granted, the
creditor is furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision. Married residents of
Wisconsin applying for an individual account must give us the name and address of their spouse if the spouse is also a Wisconsin resident. Please
provide this information to us at Mission Lane LLC, P.O. Box 105286, Atlanta, GA 30348.

YOUR BILLING RIGHTS
By: Transportation Alliance Bank, Inc. dba TAB Bank
Your Billing Rights - Keep This Document for Future Use.
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement.
If you think there is an error on your statement, write to us at: Mission Lane LLC, P.O. Box 105286, Atlanta, GA 30348, Attn: Billing Dispute. You also may
send an email to support@missionlane.com, the subject line “DISPUTE”.

16/18

3/9/2021

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automatic payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we
think you owe.

17/18

3/9/2021

If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with
merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we made to you, or if we own the company that
sold you the goods or services.)
2.You must have used your credit card for the purchase. Purchases made with cash advances from an ATM do not qualify.
3.You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: Mission Lane LLC, Customer Service, P.O. Box
30495, Tampa, FL 33630-3495.
While we investigate, the same rules apply to the disputed amount as discussed above under the section entitled “While we investigate whether or not
there has been an error.” After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and do not pay, we may
report you as delinquent.
A.P.3.3.6

18/18

